                                                          IG-99-058




AUDIT
                            EARNED VALUE MANAGEMENT AT NASA
REPORT
                                     September 30, 1999




                           OFFICE OF INSPECTOR GENERAL



National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at (202) 358-1232 or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

                Assistant Inspector General for Auditing
                NASA Headquarters
                Code W, Room 8V69
                300 E Street, SW
                Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at http://www.hq.nasa.gov/office/oig/hq/hotline.html - form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.




Acronyms

CFO             Chief Financial Officer
DCMC            Defense Contract Management Command
DoD             Department of Defense
EVM             Earned Value Management
FAR             Federal Acquisition Regulation
NPD             NASA Program Directive
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
PMC             Program Management Council
RDT&E           Research, Development, Test, and Evaluation
SMO             Systems Management Office
W                                                                         September 30, 1999


TO:           AE/Chief Engineer
              B/Chief Financial Officer

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Audit Report on Earned Value Management at NASA
              Assignment Number A9905500
              Report Number IG-99-058

The subject final report is provided for your use and comments. Although management’s
comments were due by September 20, 1999, comments were not received as of the date of this
report. Therefore, please provide your response to the final report not later than November 1,
1999. Please refer to the finding paragraph for the overall audit results. All recommendations
remain open for reporting purposes until corrective actions are completed. In addition to
providing your comments on the report, please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective action are
effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program Director,
Procurement Audits, at (818) 354-3360; Mr. Tony A. Lawson, Audit Program Manager, at (301)
286-6524; or Ms. Sandra L. Laccheo, Auditor-in-Charge, at (757) 864-3458. We appreciate the
courtesies extended to the audit staff. The final report distribution is in Appendix D.

[original signed by]

Russell A. Rau

Enclosure
                                                            2
cc:
B/Comptroller
BF/Director, Financial Management Division
BR/NASA EVM Focal Point
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
MSFC/DD01/Chair, Program Management Council Working Group
MSFC/BJ01/Lead Center Earned Value Focal Point
                                         3
bcc:
GSFC/201/Audit Liaison Representative
JSC/BD5/Audit Liaison Representative
MSFC/BJ01/Audit Liaison Representative
W/GSFC/T. Lawson
  /JPL/L. Dear
  /KSC/B. Armstrong
  /LaRC/S. Laccheo
                                NASA Office of Inspector General


IG-99-058                                                                                September 30, 1999
 A9905500

                              Earned Value Management at NASA


Introduction

Earned value is a method for project managers to objectively measure the amount of work
accomplished on a contract. Earned value provides project managers valid, timely, auditable
contract performance information on which to base management decisions. Earned value
management (EVM) (1) integrates cost, schedule, and technical scope of work; (2) allows for
continuous measurement of integrated performance throughout the contract; and (3) provides
project managers a means to better estimate total contract costs and the total duration of
contracts. Our overall audit objective was to evaluate how effectively NASA managers are using
earned value in managing contracts. Appendix A contains details on our objectives, scope, and
methodology.

Background

In February 1997, the Agency issued NASA Policy Directive (NPD) 9501.3, “Earned Value
Performance Measurement,” to establish the basis for applying EVM to NASA contracts. Before
issuance of the directive, NASA Centers used their individual policies on performance
measurement systems. NPD 9501.3 requires NASA project managers to ensure implementation
of criteria-based EVM1 on all significant contracts. Significant contracts are cost-
reimbursement-type contracts that are:

•   research, development, test, and evaluation (RDT&E)2 contracts with an estimated final value
    of $60 million or more and a period of performance greater than 1 year and
•   production contracts with an estimated final value of $250 million or more.




1
  EVM system criteria define the attributes that management control systems must possess to effectively capture and
present earned value data. There are 32 EVM system criteria. Each criterion addresses a major principle necessary
for effective contract management. The criteria are organized into five categories: (1) organization, (2) planning
and budgeting, (3) accounting, (4) analysis, and (5) revisions.
2
  NASA is substituting the word “development” for “research, development, test, and evaluation” in the subsequent
version of NPD 9501.3.
Project managers must use noncriteria-based EVM3 on certain contracts, unless waived by the
NASA Center Chief Financial Officer (CFO). Contracts requiring noncriteria-based EVM are:

•   RDT&E contracts with an estimated total value of $25 million but less than $60 million and
•   production contracts of less than $250 million.

During the audit, we issued a report on the need for an integrated baseline review and on the need
to revise draft NASA EVM policy. See Appendix B for a summary of the prior report.

Use of and Reliance on EVM Information

Finding. The Agency has made progress toward establishing a structure for EVM application on
contracts. For example, NASA created the EVM Focal Point Council to provide a consistent
approach for implementing EVM throughout NASA, established Agency-wide provisions and
clauses for use in solicitations and contracts when EVM is required, and improved
communications on EVM with other Government agencies and industry. Further, NASA is
developing a Memorandum of Understanding to clarify the Defense Contract Management
Command (DCMC) responsibilities for EVM surveillance. Each area is discussed in Appendix
C.

However, to effectively use EVM as a management tool, it must be an integrated part of program
and project management. To accomplish this, the Agency can make some improvements. EVM
policy is not consolidated as an overall program and project management responsibility, and
managers do not provide comprehensive EVM information to the Program Management Council
(PMC).4 EVM policy is in both a financial management directive and a program and project
management guide. The fragmentation of the policy results in the unnecessary separation of
authority for EVM policy, which has been delegated to the CFO, while the day-to-day
responsibility for EVM implementation rests with the program and project managers. EVM is
not solely a financial tool. In fact, its greatest contribution is to the effective management of
NASA programs and projects. Therefore, the authority to implement policy should be aligned
with the responsibility for program and project management rather than with the fiscal chain of
command and fiscal policy directives. In this manner, EVM can be fostered through other than
the encouragement of the NASA CFO.

Fragmented EVM Policy. In 1989, the Department of Defense (DoD) began the cultural shift
from viewing EVM as a mandatory financial reporting requirement to a valuable and

3
  Noncriteria EVM allows the contractor greater flexibility in the selection of internal performance measurement
techniques. Contractors are not required to establish, maintain, or use a management control system that meets EVM
criteria. The purpose of noncriteria EVM is to provide for better management control of small programs and
projects.
4
  The PMC is the senior management group that is chaired by the NASA Deputy Administrator and is responsible for
recommending approval for and overseeing implementation of proposed programs according to Agency
commitments, priorities, and policies. Other PMC’s have been established at the NASA Center level.

                                                        2
fundamental project management tool. DoD transferred the EVM policy organization from the
Comptroller’s Office to acquisition management. This change marked the beginning of a major
shift in “ownership” of EVM from finance to project management. NASA has aligned its EVM
processes to parallel DoD’s policy. However, the Agency issued EVM policy in a financial
management directive, NPD 9501.3.5

NPD 9501.3 establishes the requirement to apply EVM to NASA contracts. The directive states
that the Chairperson of the NASA PMC is the policy official ultimately responsible for the
implementation of EVM on significant contracts within NASA. However, the PMC Chairperson
delegated to the CFO the authority to implement NPD 9501.3.6 Accordingly, the CFO is
responsible for measuring and reporting EVM compliance and has the authority to grant waivers
for contractor systems that do not meet EVM criteria.

EVM policy is also addressed in NASA Procedures and Guidelines (NPG) 7120.5A, “NASA
Program and Project Management Processes and Requirements.” The NPG establishes the
requirements for the formulation, approval, implementation, and evaluation of all Agency
programs and projects. The policy requires program and project managers to ensure that all
management system requirements are appropriately implemented. Chapter 4 of the NPG
contains the management system requirements,7 including EVM. The Office of Chief Engineer
is responsible for the maintenance of NPG 7120.5A.

To help ensure compliance with NPG 7120.5A, NASA is creating a Systems Management Office
(SMO) at each Center that will:

•   report to the Center Director,
•   review and evaluate Center programs and projects, and
•   provide independent evaluations on how well programs and projects are meeting their cost
    and schedule commitments.

EVM Emphasized as a Financial Reporting Tool. Before the Agency issued NPD 9501.3,
NASA Centers used their individual policies on performance measurement systems. The Center
CFO’s had primary responsibility for conducting compliance reviews of contractors’
performance measurement systems. Management considered these compliance reviews a
financial evaluation. Although project managers are now responsible for ensuring EVM
implementation on all required contracts, managers continue to view EVM as a financial
5
  Appendix C of NPG 1400, “NASA Directives System Procedures and Guidelines,” lists subject-classification
numbers for NASA directives. The number assigned to a directive is based on its subject matter. Numbers 7000
through 7999 are assigned to program formulation policy, and numbers 9000 through 9799 are assigned to financial
management.
6
  The delegation to the CFO is specified in NPD 9501.3.
7
  The management system requirements are resources management, risk management, performance measurement,
acquisition management, and safety and mission success and environmental management.

                                                       3
reporting tool rather than as a project management tool. Viewing EVM as a financial
management tool adversely affects the manner in which EVM analysis is conducted and the way
results are used in project management. When the SMO’s are functional, managers will likely
continue to view EVM as a financial requirement because primary EVM policy is in a financial
management directive.

EVM is more than a financial tool. EVM provides insight into the status of the program or
project and helps forecast future cost performance based on present trends. The capability to
trace problems to their source facilitates early visibility of unfavorable cost and schedule trends,
which can be corrected before they become material. Favorable variances can be an indication of
poor initial planning, technical breakthroughs, or front-end loading.8 Project managers may
already be aware of problems causing significant variances through other formal or informal
reporting systems. However, EVM information quantifies the cost impact of the problems, and
that information would be difficult to ascertain otherwise. Further, project managers can
correlate the EVM system schedule variances with the outputs of the formal scheduling system,
thus permitting a cross-check on the validity of work performed and associated variances.

Minimal EVM Information Reported to PMC’s. The project managers’ briefings to the
Center PMC’s did not contain comprehensive EVM information. The briefings generally
included only minimal EVM information; however, they included the financial status on projects,
such as comparisons of planned and actual obligations, funding received, and uncosted
obligations.9 Program and project managers report financial-related information because they
also support the annual Program Operating Plan10 by providing assessments of affordability for
NASA funding requirements. The assessments of affordability enable a firm commitment to
accomplish program and project goals and objectives on schedule and within budget.

The PMC’s serve as high-visibility forums for raising issues related to specific programs and
projects. The PMC’s are responsible for assessing existing programs and projects and for
evaluating cost, schedule, and technical content to ensure that the Agency meets its commitments
specified in the Program Commitment Agreement, Program Plan, and Project Plan.11 Further,
PMC’s recommend continuation or cancellation of programs and projects.



8
  Front-end loading is deliberate over budgeting early in the life of the program to create a more favorable cost
variance early in the program.
9
  Obligations are amounts of orders placed, contracts awarded, or services received for bona fide needs that will
require payments that comply with applicable laws and regulations. For contracts, uncosted obligations occur when
an amount is not accrued (costed) because goods are not received or monthly services are not performed.
10
   NASA Centers produce the Program Operating Plan in response to Headquarters-directed budget guidelines. It is
a compilation of requested budgets by program or project.
11
   The Program Commitment Agreement is an agreement that documents the Agency’s commitment to execute
program requirements within established constraints. Additional commitments are documented in the Program and
Project Plans, which detail the approach and plans for formulating, approving, implementing, and evaluating
programs and projects.

                                                        4
Need for Comprehensive EVM Reporting. While we recognize the importance of budget
information, EVM information is equally important. Earned value provides a more accurate
picture of project status than budget or actual cost information alone, because earned value
provides the budgeted cost of the work actually accomplished. The EVM “early warning”
system provides reliable and timely identification of trends requiring corrective action and gives
managers the ability to predict cost overruns and schedule slips.

When EVM is applied, NASA managers receive contractor cost performance reports that identify
the magnitude and impact of actual and potential problem areas causing significant cost and
schedule variances. NASA managers should use the contractor-provided data to provide project
status information to the Center PMC’s. Reporting should include information on the current
project status such as the cost and schedule performance indexes,12 an evaluation of the
contractor’s use of management reserve13 and recovery plans for schedule slips or cost variances,
and forecasts of the contract estimate at completion. More comprehensive EVM reporting to the
PMC’s will establish the need for and demonstrate senior management commitment to EVM.
The PMC’s will also be in a better position to determine whether NASA projects should be
continued or cancelled.

In the near future, we will issue a report on the International Space Station that will recommend
greater emphasis on EVM reporting.

Need for Policy Change. The CFO is not responsible for overseeing project management
processes and, therefore, is not in the best position to implement EVM policy, to measure and
report compliance with such policy, or to be the decisionmaker on waivers of compliance with
contractor EVM systems. To increase visibility as a project management tool, EVM policy
should be embodied in the program and project management directives and guidance. The
Associate Administrators or Center Directors, not the CFO, should be prescribing use of EVM
for program and project management for two reasons:

•    the Associate Administrators are responsible for leadership and management and are the
     focal points for accountability and
•    Agency programs are assigned to NASA Centers, which are responsible for implementation
     and accountability for meeting schedule and budget guidelines.


12
   The cost performance index is the ratio of budgeted costs of work performed to actual costs and is often used to
predict the magnitude of a possible cost overrun. The schedule performance index is the ratio of work performed to
work scheduled. The indexes provide an indication of the cost and schedule efficiency with which work has been
accomplished. An index of 1.0 indicates that cost is on target or that the contractor is performing on schedule.
13
   Management reserve is an amount of total allocated budget withheld for management control purposes rather than
designated for the accomplishment of a specific task. Management reserves are intended to reduce the risk of
missing cost or schedule objectives. Use of management reserve requires a change to the performance measurement
baseline.

                                                         5
Therefore, consolidating EVM policy in program and project management would emphasize the
significance of EVM as a project management tool and would result in more effective EVM
execution on required contracts.

Recommendations for Corrective Action

The Chief Engineer should:

   1. Coordinate with the CFO and issue EVM policy as program and project
   management directives and guidance.

   2. Establish procedures for program and project managers to report comprehensive
   EVM information in PMC status briefings.

3. The PMC Chairperson should delegate the authority to implement and to measure
compliance with EVM policy to the Associate Administrators or Center Directors.

Management’s Response

Management did not provide comments on the draft report. Therefore, management should
provide complete comments on the final report.




                                            6
                    Appendix A. Objectives, Scope, and Methodology


Objectives

The overall audit objective was to evaluate how effectively NASA managers are using earned
value to manage NASA contracts. Specifically, we determined whether:

•    EVM was effectively implemented on contracts and
•    NASA managers effectively used the DCMC for EVM system surveillance.

Scope and Methodology

To determine whether EVM was effectively implemented on contracts, we:

•    interviewed project teams and NASA officials at Goddard Space Flight Center (Goddard),
     Johnson Space Center (Johnson), and Marshall Space Flight Center (Marshall);
•    attended a NASA-sponsored EVM workshop in Huntsville, Alabama, in September 1998;
•    reviewed NASA and DoD regulations and DoD presentations and related documents;
•    evaluated cost performance reports and reviewed contractual documents;
•    discussed EVM implementation procedures with EVM focal points;
•    evaluated the draft and final NASA Federal Acquisition Regulation (FAR) Supplement
     provisions and clauses published in the “Federal Register”; and
•    reviewed briefing packages presented to the PMC’s.

To determine whether NASA managers were effectively using DCMC, we reviewed contract
letters of delegation for the applicable FAR subparts.14 We reviewed surveillance plans and
reports on two contracts where EVM surveillance was specifically delegated to DCMC. No
other contracts reviewed had specific EVM surveillance delegations. We discussed the type of
support the project offices were receiving from DCMC. We also attended the meeting with
DCMC to prepare a draft Memorandum of Understanding to clarify the responsibilities with
regard to EVM surveillance.

We relied on computer-processed data from the Program Operations Division, Office of
Procurement, to determine the audit sample selection. Although we did not perform a formal
reliability assessment of the computer-processed data, we determined that the contract numbers,
award dates, and contractor names agreed with information maintained in NASA’s on-line query
system, Financial and Contractual Status. We also compared data in the NASA Headquarters
electronic listing to data provided by the EVM focal points.



14
  The FAR contains a list of contract administration functions. Subparts 42.302(a)(15)(40)(41) and (67) are related
to EVM.

                                                     7
Appendix A


Contracts Reviewed

NASA issued Agency-wide EVM policy in February 1997. At the time of our audit, NASA had
awarded only three contracts since February 1997 that were greater than $60 million.15
Therefore, we selected contracts awarded before February 1997 because each NASA Center had
individual policy on performance measurement systems.

We judgmentally selected 17 contracts shown in Table A-1 from an electronic list of active
contracts as of August 31, 1998. The Program Operations Division, Office of Procurement,
provided the list. We selected contracts:

•    that were classified as research and development on the electronic list,16
•    for which EVM had been implemented,17 and
•    for which EVM had not been implemented.18

We judgmentally selected six planned acquisitions shown in Table A-2 from an electronic copy
of NASA’s Master Buy Plan19 as of November 17, 1998. The Program Operations Division,
Office of Procurement, provided the list. We eliminated projects for services, support,
construction, and change orders for existing contracts. We also eliminated projects with
anticipated values less than $60 million.
We concentrated our efforts on contracts awarded by or planned acquisitions at Goddard,
Johnson, and Marshall because the three Centers had awarded the most significant percentage of
contract dollars.




15
   Criteria-based EVM is required on RDT&E contracts with an estimated final value of $60 million or more and a
period of performance greater than 1 year.
16
   NASA policy states that EVM should be used on RDT&E and production contracts; however, NASA does not
officially classify its contracts as RDT&E and production. NASA classifies contracts as supplies and equipment,
services, or research and development. The classifications are from the Federal Procurement Data System, Product
and Service Codes.
17
   We obtained from the EVM focal points the list of contracts that had implemented EVM. The EVM focal points
identified 37 contracts that had applied criteria-based and noncriteria-based EVM.
18
   The contracts had remaining funds of $60 million or more and at least 2 years remaining before contract
completion.
19
   The Master Buy Plan provides information on planned acquisitions to enable management to focus its attention on
a representative selection of high-dollar-value and sensitive acquisitions.

                                                        8
                                                                                                Appendix A


                                     Table A-1. Selected Contracts
                                                                                Award         Estimated Value
    Contract          Contractor                                                 Date          (in thousands)

    NASW 43001        Grumman Aerospace Corporation                            07/31/87           $1,219,367
    NAS5 320001       Lockheed Martin Corporation                              12/23/87              921,089
    NAS5 325002       Lockheed Martin Corporation                              08/13/90              680,947
    NAS5 32954        TRW, Inc.                                                09/15/95              381,889
    NAS5 60000        Hughes Information Tech. Corp. (Raytheon)                03/30/93              868,638
    NAS5 980093       New Mexico State University, Las Cruces                  02/17/98               66,875
    NAS8 362002       Lockheed Martin Corporation                              06/07/88            3,642,798
    NAS8 38100        Thiokol Corporation                                      07/17/91            3,950,958
    NAS8 45000        Boeing North American, Inc.                              06/28/96            1,473,258
    NAS9 180001       Boeing North American, Inc.                              01/01/86            5,340,321
    NAS9 18181        Hughes Training, Inc. (Raytheon)                         10/15/89              684,903
    NAS9 182001       McDonnell Douglas                                        12/23/87            4,624,066
    NAS9 18300        Lockheed Martin Corporation                              01/17/90              698,127
    NAS9 188004       Johnson Engineering                                      04/29/93              317,995
    NAS9 970055       Wyle Laboratories                                        02/01/97               56,761
    NAS9 971505       Hamilton Standard Space Systems                          09/25/97              125,881
    NAS9 972206       Canadian Commercial Company                              12/31/97               64,699
1
  EVM was not implemented on the contract. We eliminated the contract from our review because the contract was
terminated, cancelled, or incorporated into the Space Flight Operations Contract. The Space Flight Operations
Contract is for Space Shuttle operations.
2
  We selected the contract because it was featured on a DoD acquisition reform satellite broadcast in November
1997. The broadcast addressed DoD’s initiative on EVM.
3
  The contract is for balloon services and did not meet the requirement for EVM.
4
  EVM was not implemented on the contract.
5
  The contract did not meet the requirement for criteria-based EVM.
6
  The contract is an indefinite order/indefinite delivery contract. The award was to a Canadian company and is
administered by the Canadian government. EVM was not implemented.




                                                      9
Appendix A



                              Table A-2. Selected Planned Acquisitions
                                                                                              Estimated Value
    Project Description                                                   Lead Center           (in millions)

    Next Generation Space Telescope Phased Development1                     Goddard               $ 700
    Rapid Spacecraft Acquisition II2                                        Goddard                1,500
    Medium-Class Explorer Missions                                          Goddard                  175
    Flight Hardware Development and Sustaining Engineering3                 Johnson                  160
    Reusable Solid Rocket Motors, Buy No. 44                                Marshall               2,000
    External Tank, Buy 6, Phase 111, Long-Lead Hardware4                    Marshall                 681
1
  The contract will not be awarded until approximately 2003. Plans are to implement EVM when the contract is
awarded.
2
  A firm-fixed-price contract will be awarded. EVM is not required on firm-fixed-price contracts.
3
  The project was cancelled.
4
  The contract will be included as a subcontract under the Space Operations Flight Contract.

Audit Field Work

We performed audit field work from August 1998 to July 1999 at NASA Headquarters, Goddard,
Johnson, and Marshall. We performed the audit in accordance with generally accepted
government auditing standards.




                                                       10
              Appendix B. Prior Office of Inspector General Review


Audit Report Number IG-99-037, “Earned Value Management at NASA  ECS
Performance Measurement Baseline,” September 10, 1999. The report discusses the need to
perform an integrated baseline review after the negotiation of a major contract modification. The
report recommended revising draft NPG 9501.4, “Earned Value Management Implementation on
NASA Contracts,” and issuing the document as soon as practical. The revision should include
the requirement to perform the baseline review after contract award, the exercise of contract
options, or incorporation of major contract modifications. Management agreed to conduct the
baseline review. Management stated it would issue NPG 9501.4 as soon as practical and would
consider the recommendation to modify the guide. These issues have not yet been resolved.




                                           11
          Appendix C. Positive Actions to Establish EVM Framework


NASA has taken actions to establish the infrastructure for EVM implementation. NASA created
the EVM Focal Point Council, modified the NASA FAR Supplement to include EVM provisions
and clauses for use in solicitations and contracts, and improved communications on EVM with
other Government agencies and industry. Further, NASA is developing a Memorandum of
Understanding to clarify the DCMC responsibilities for EVM surveillance. Each area is
discussed below:

EVM Focal Point Council

NASA created the EVM Focal Point Council in December 1996. The council, chaired by the
Lead Center EVM Focal Point at Marshall, is responsible for developing implementation
procedures and for addressing EVM implementation reviews and surveillance issues and
activities. Members include a representative from each NASA Center, the Office of
Procurement, and the Office of the CFO. Focal point responsibilities are defined in draft NPG
9501.4, “Earned Value Management Implementation on NASA Contracts.” Each council
member ensures consistent EVM implementation on applicable NASA contracts, develops and
provides EVM training, assists the contracting officer and project manager in developing EVM
contractual requirements, and serves as consultant to source evaluation boards in evaluating
contractor proposals. In addition, the EVM Focal Point Council provides an open forum for the
Center EVM focal points to share their experiences and to develop a network of support within
the NASA EVM community.

NASA-Wide EVM Clauses Established

When NPD 9501.3 was issued in February 1997, NASA had no EVM provisions or clauses for
use in Agency solicitations and contracts. In March 1999, the Agency modified the NASA FAR
Supplement by establishing Agency-wide provisions and clauses, similar to those used by the
DoD, for use in solicitations and contracts that require EVM. NASA and DoD are major
customers in the aerospace industry. As such, they collaborated to align their approaches to the
use of EVM. The change to the NASA FAR Supplement clarified the role of the DCMC with
respect to its responsibility for EVM surveillance.

Improved Communication with Other Government Agencies and Industry

The EVM Focal Point Council has worked to establish effective communications with other
Government agencies through participation in the DCMC Program Management Advisory
Council as well as representing NASA at industry EVM forums sponsored by the National
Defense Industrial Association and other professional organizations. The participation has




                                           12
                                                                                    Appendix C


provided greater consistency in EVM implementation throughout the Government and has
encouraged greater partnering with industry. The participation has also provided those outside
the Agency a single focal point for coordinating EVM issues within NASA.

EVM Surveillance

NASA either retains or delegates to the DCMC surveillance of EVM. Surveillance begins with
the award of the contract, continues through EVM system evaluation and acceptance, and
extends throughout the duration of the contract. Surveillance ensures the Government project
manager that the contract data produced by the EVM system is reliable and accurate for
decisionmaking. Periodic assessments verify that the contractor’s EVM system continues to
meet contractual requirements and generates timely and valid performance data for Government
and contractor use.

The DCMC is responsible for ensuring the effective implementation of EVM within DoD and for
ensuring the integrity and effectiveness of EVM process applications. In March 1999, the
Agency changed the NASA FAR Supplement to clarify the role of DCMC with respect to its
responsibility for reviewing EVM system descriptions (descriptions of internal management
control systems) and for verifying initial and continuing contract compliance with NASA and
DoD EVM system criteria. The new NASA FAR Supplement provisions and clauses created a
need to clarify for NASA managers how DCMC will perform EVM surveillance for NASA
contracts.

The EVM Focal Point Council, with DCMC participation, drafted a Memorandum of
Understanding that describes the services DCMC will provide for NASA. The intent of the
memorandum is to streamline the EVM delegation process and to ensure a minimum acceptable
level of support under the delegation. After approval of the memorandum, the project office will
reference it in the letter of delegation of EVM surveillance to DCMC. If the project manager
requests additional surveillance support, the letter of delegation will specify the required
assistance.




                                               13
                          Appendix D. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AE/Chief Engineer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
BR/NASA EVM Focal Point
G/General Counsel
H/Associate Administrator for Procurement
HK/EVM Focal Point
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
 EVM Focal Point, Ames Research Center
Director, Dryden Space Flight Center
 EVM Focal Point, Dryden Space Flight Center
Director, John H. Glenn Research Center at Lewis Field
 EVM Focal Point, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
 EVM Focal Point, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
 EVM Focal Point, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
 EVM Focal Point, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 EVM Focal Point, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
 EVM Focal Point, Langley Research Center



                                          14
                                                                                    Appendix D


NASA Centers (Cont.)

Director, George C. Marshall Space Flight Center
 Chair, PMC Working Group, George C. Marshall Space Flight Center
 Lead Center Earned Value Focal Point, George C. Marshall Space Flight Center
 EVM Focal Point, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center
 EVM Focal Point, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
  Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisitions
  Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               15
Major Contributors to this Report

Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Program Manager, Procurements

Sandra L. Laccheo, Auditor-in-Charge

Bonnie J. Armstrong, Auditor

Nancy C. Cipolla, Report Process Manager

Christina D. Head, Program Assistant
